Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 ENHANCING THE UTILIZATION OF
  NONPHYSICIAN HEALTH CARE
          PROVIDERS
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human SeMceS’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Offke of Audit SeMces, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit SeMces (OAS) provides all auditing seMces for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in<
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and effkiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Offke of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                                          Headquarters
Russell W. Hereford, Ph.D., fioject Leader                                      Alan S. hvine
Lori Rutter, Lead Analyst

     To obtain a copy of this report, contact the Boston Regional Office at 617-565-1050.
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEW




 ENHANCING THE UTILIZATION OF
  NONPHYSICIAN HEALTH CARE
          PROVIDERS




            MAY 1993   OE14MW02070
                  EXECUTIVE                              SUMMARY

PURPOSE

To assess the potential     for utilizing nonphysician    health care providers   in more
productive     ways.

BACKGROUND

National   health care reform stands at the top of the domestic policy agenda. In order
to meet the demands and stresses that any national health care reform undoubtedly
will place on the existing delivery system, using our resources more effectively will be
critical. In sho~ we must develop new ways of combining our health labor, capital,
and knowledge resources if we hope to solve problems of cost, access, and quality.

To meet the emerging     demands, attention must be directed toward improving the
utilization of the large cluster of nonphysician health care providers, such as nurse
practitioners  (NPs), physician assistants (PAs), certified nurse midwives (CNMS),
occupational therapists, and medical technologists. While health care professionals are
licensed by the States, the Federal government influences their training and use both
through its educational assistance programs, such as the Health Professions Education
A@ and through Medicare and Medicaid payment policies.

This report focuses on making the delivery of health care more productive by using
nonphysician providers differently. It is not a formal evaluation of the success or
failure of health care organizations in reaching this goal. Rather, the report identifies
and describes approaches that some organizations are taking to make better use of
such personnel. We also describe fi.mdamental barriers that inhibit the broader use of
such approaches.

We reviewed literature       on health care provider utilization and regulation. We
interviewed Federal and State ofilcials, health care providers and educators,
representatives of trade associations, and other experts in the field. We also visited
two hospitals and one managed care delivery system to examine their utilization of
health care personnel. Our companion study, Enhancing the Utilization of
Nonphysician Health Care Bovidem Z7zreeCase Studies (OEI-01-90-02071), describes
these site visits in detail.

FINDINGS

In di#immtkids of setth~ hedh cm oqpnhutions are utiking nonphysicianpmv&itxs
m new ways to addressconcernsabout c­ ~   and qualdy.

   �
           In acute care settings, some hospitals are training workers from different
           disciplines to provide a wider range of services directly at the bedside.


                                                  i
  �	
       In long term care settings, nurse practitioners and physician assistants are
       playing a larger role in providing health and medical care semices to nursing
       home residents.

  �	
       In ambulatory settings, clinics and managed care programs are using physician
       assistants, nurse practitioners, and certified nurse midwives to increase access to
       primary care services.

lkpite thepmnise that theseap-      ho@ s&niJicant
                                                 banierstit              thatWnstnlin
theiivviiapread Udopti& mese hdhde:

  �	
       Professional Tem”toriabn. Rather than encourage a teamwork approach to
       providing care, professional boundaries can inhibit crossdiscipline sharing of
       knowledge and information. Professional terntorialisrn limits health care
       organizations’ ability to take advantage of opportunities to enhance utilization
       of nonphysician providers.

  �	
       Licensure Restrictions. Licensure laws are designed to protect the public’s
       health, safety, and economic well-being by restricting entry into the occupations
       to those with the proper credentials. These regulatory laws also can inhibit
       flexibility in how nonphysician providers may be utilize@ reduce access to
       services, and impose higher costs.

  �	
       Educational Isolation. Health professions education rarely includes inter-
       disciplinary training. This exclusion divides the professions from each other,
       rather than encouraging cooperative practice styles and team building.

  �	
       Physician Reszktance. Although some physicians are working closely with NPs,
       PAs, and CNMS, other physicians resist broader scopes of practice for these
       providers. Their foremost concern is quality of care, but their resistance may also
       result from unfamiliarity with how to utilize these providers effectively, or possibly
       self-interest. This resistance could hinder access to care, since these providers are
       able to extend the capacity of individual physicians to deliver care.

  �	
       Imtitutional lnertz”a. Health care organizations, like most organizations, are
       naturally resistant to change. Redefining organizational boundaries requires a
       significant change in how all health care staff--both physician and nonphysician
       providers--are utilized.

CONCLUSIONS

l%e Rddit Hmlth SkrvicgO-       under authdia   in the Heukh Rn)ftins
EducationAc~ has an op-       to strm@en h nationalIeademhipmlk m
encouraghgmorepmdk tie use ofpemonnd % PHS COW act as a catalystw bting
tdwf~ejkmtamoreemmivemmin dim           of how nonphysidzn health care pmvkkm
can hekjJ
        krease accessand conlml cmts withoutsa-g       quddy.


                                            ii
We offer the following ways that PHS could take advantage of this opportunity:

  �
      7%e PHS, in its fimding of health care educational institutions, could give
      increased emphasis to currkuk that teach superwkory and management skills
      needed to take advantage of oppo~nities for using health care pemonnel in more
      productive ways.

  �
      Z4e PHS, in its funding of health care educational institutions, could pay increased
      attentkm to programs that encourage the development of cooperah”veprach’ce
      modek among different heukh care profasions.

  �
      7he PHS could convene a national Sympsium to explore the potential for using
      health care penonnel more productively.




                                           . ..
                                           111
                       TABLE                     OF CONTENTS


Executive Summary


Inlmduction
          . . . . . . .. o. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. O.. O.OOO.=.O1


Findings

   Newapproaches           toorganizing        andstaffig         health care setices           ............. d

            Acute care settings           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..= . . ...4

            LOngterm        care settings . . . . . . . . . . . . . .. 00 . . . . . . .. OOO.OO.O. ..005

            Ambulatory settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..=..6


   Barriers that constrain widespread adoption ofnew approaches                                 ............. 7

            Professional territorialism           . ..*..**       .*.*.*.       �   *...*.   ..*****      �   *****=       �
                                                                                                                               7

            Licensure restrictions          ........................................ 8

            Educational       isolation     ........................................ 9

            Physician resistance          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . �. . . . ...10

            Institutional inertia         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..=11


Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. O.......=            . ..00 ..=OOS =012


Appendices

/kEndnotes         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...=...=..        . . . . . . . . . . ..A-l
                         INTRODUCTION

PURPOSE

To assess the potential for utilizing nonphysician health care providers in more
productive ways.

BACKGROUND

Pendhg N&ml      Health R@inrn

National health care reform stands at the top of the domestic policy agenda. Health
care expenditures rose from 9.2 percent of gross national product in 1980 to 14
percent in 1992, when expenditures reached $820 billion.1 Despite these growing
health care costs, more than 36 million people are uninsured. 2 Even the quality of
care has been called into question.3

In order to meet the demands and stresses that any national health care reform will
undoubtedly place on the existing delive~ syste~ using our resources in more
productive ways will be critical to success. Improved productivity in the health care
field does not mean merely a faster way of producing services at the lowest possible
cost. Rather, improved productivity challenges us to expand the public’s access to
quality services that are delivered in an efficient reamer. In short, we must develop
new production functions--new ways of combining our existing health labor, capital,
and knowledge resources--if we hope to solve problems of cost access, and quality.
Developing new approaches compels us to challenge fundamental notions about how
we organize and deliver health semices, and most importantly, how we utilize health
personnel.

Despite this need, a recent Institute of Medicine study observes that within health care
organizations “there has been little research and experimentation in structuring staffing
policies and working environments.’d     As the Chairman of the Prospective Payment
Assessment Commission has pointed out, “It is not sufficient merely to have an idea
about how to improve productivity. It is also necessary to understand the factors that
might limit or prohiiit these changes. . . . For too long issues of productivity have been
missing in the debate over national health policy. It is time to focus attention on this
important dimension of the organization and delivery of health services.”5

7%e Growth   of H&     Pmf&ns

In 1970, 13 health occupations were regulated by all the States.b By the 1980’s, 15
occupations were regulated in all the States, 22 in more than half the States, and 50
health occupations in at least one State .7 Fourteen of the 36 fastest growing
occupations cited by the Bureau of bbor Statistics are in the allied health fields TO
meet emerging demands, attention must be directed toward improving the utilization


                                            1
of the large cluster of nonphysician health care providers “whose functions include
assisting, facilitating, or complementing the work of physicians and other specialists in
the health care system.’”

As we use the term in this repo~ nonphysician providers include a wide range of
workers in the health care setting. Some have extensive training and graduate
education, such as nurse practitioners (NPs), physician assistants (PAs), and certified
nurse midwives (CNMS). Others are workers whose training consists primarily of on-
the-job education, such as aides, laborato~ assistants, and dietary assistants. Health
care providers in each of these categories will have an important role to play in
meeting the American public’s health care needs in the years ahead.

Fe&md Suppti for H&        Rvfd

While health care providers are licensed by the States, the Federal government
influences their training and use both through its educational assistance programs and
through Medicare and Medicaid. Fiscal Year 1993 appropriations under the Health
Professions Education Act1° are $4.9 million for physician assistant programs, $3.S
million for allied health special projects, and $15.4 million for nurse practitioner and
certified nurse midwife programs. The National Health Services Corps Scholarship
program includes a set aside of at least 10 percent of total scholarships funds for PAs,
NPs, and CNMS willing to serve in Health Professional Shortage Areas.11

The Congress has stated that “these professions will play a pivotal role in reaching the
national goal of making access to prima~ health care more widely available and of
reducing unnecessa~ health care costs.”12 In an extensive review of the literature,
the Office of Technology Assessment determined that, ‘The weight of the evidence
indicates that, within their areas of competence, hll?~ P* and CNMs provide care
whose qualityis equivalent to that of care provided by physicians. . . Patients are
generally satisfied with the quality of care provided by NPs, PAs, and CNMS,
particularly with the interpersonal aspects of care.”13

Medicare Part B covers the sewices of a number of nonphysician providers on a fee­
for-sewice basis, although the amount varies depending on the setting. These
providers include NPs, PAs, and CNMS, as well as certified nurse anesthetists, clinical
psychologists, clinical social workers, occupational therapists, physical therapists,
speech therapists, and audiologists.14 Most State Medicaid programs now cover the
sexvices of NPs, PAs, and CNMS. In addition, Medicare’s DRG payment system has
given hospitals a financial incentive to be more efficient, which should lead them to
examine how they can utilize their labor resources more effectively.

F-of     tlukReprt

This report focuses on making the delivery of health care more productive by using
personnel differently. It is not a formal evaluation of the success or failure of health
care organizations in reaching this goal. Rather, the report identifies and describes


                                             2
approaches that some health care organizations are taking to make better use of
nonphysician providers. These initiatives are in the midst of implementatio~ so
definitive measures of success are not yet available; nonetheless, the early signs appear
positive. While the approaches that this report identifies may not be widespread or
fully implemented yet, they do represent specific efforts to let nonphysician providers
play the fullest possible role in delivering health care services.

This report also describes fundamental barriers that inhibit the broader use of
nonphysician providers. We hope that this effort will help clarify how Federal and
State governments can facilitate experimentation and progress in this important area.

METHODOIDGY

We used three data sources in this inspection:

       (1) The professional and research literature on the utilization and regulation of
       nonphysician health care providers.

       (2) Interviews with Federal and State officials; health care providers and
       educators; representatives of trade associations, including the American
       Academy of Physician Assistants, American College of Nurse Midwives,
       American Hospital Association, American Medical Association, American
       Nurses Association, American Occupational Therapy Association, American
       Society of Allied Health Professionals, and National Association of Pediatric
       Nurse Practitioners; and other experts in the field.

       (3) Site visits to three health care organizations that have undertaken
       initiatives to enhance the utilization of health care personnel. St. Joseph’s
       Hospital in Atlanta and Mercy Hospital and Medical Center in Chicago are two
       hospitals that have developed programs to reorient the work of their staff.
       EverCare, in Minneapolis is a managed care system that provides health and
       medical care semices to nursing home residents. We did not intend for these
       organizations to be representative of other organizations. We selected them
       precisely because of the atypical nature of what they were doing. Our criterion
       for selection was that each organization was attempting to expand the range of
       work and setices being done in more traditional settings, not that these
       necessarily represent “best practices.” In our companion study, Enhancing the
       Utilization of Nonphysician Health Care fiovidem: l%ree Case Studies (OEI-Ol-
       90-02071), we describe these approaches and their impact in detail.

We conducted this study in accordance with the Quality Standards for Iltspectbns
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                FINDINGS

IN DIFTERENT KINDS OF SEITING& HEALTH CARE ORGANIZATIONS
ARE UTILIZING NONPHYSICIAN PROVIDERS IN NEW WAYS TO ADDRESS
CONCERNS ABOUT COST, A-       AND QUALITY.

In acuk?caresettings,some hq@ak im tminiqgwok           ~m    dijfkrenld&ci@lihes10
providea widerrangeof servizs -dtib&

U.S. hospitals averaged 3.4 staff for evey occupied bed in 1990, up from 2.6 in 1980
and 1.6 in 1970. These 1990 figures compare with 2.8 in Canada and 1.3 in
Germany.ls Patient care in most U.S. hospitals is organized around relatively small,
clinically focused units where bedside nursing care is delivered. Other sefices needed
for treatment--x-ray, phlebotomy, pharmacy, laboratory, and transport, for example-­
are provided through separate departments by specialized workers who report to
central hospital administration rather than to the patient care unit.

Recently, some hospitals have be~      to address the challenge of reorganizing how they
utilize nonphysician providers to deliver care. Various terms used to describe this
change include patient-focused care? operational restructuring, worker cross-training,
and work redesign. Some of these approaches are advocated by consulting firms.
Others, such as multiskilled health practitioner development, are outgrowths of
training programs offered by hospitals and colleges. lb me goal of each of these
approaches is to expand the range of work that nonphysician providers do by training
them to carry out new functions.

We examined the efforts of two hospitals that are moving in this direction. In Atlant%
St. Joseph’s Hospital has created a new position of “semice associate” for workers who
have traditionally performed a limited range of duties such as housekeeping, delivering
meals, or transporting patients. The hospital has trained these workers to also provide
basic patient care under the supemision of nurses on the individual units. Rather than
report to centralized hospital management, as in most hospitals, the service associates
are responsible directly to the patient unit on which they work.

In Chicago, Mercy Hospital and Medical Center has trained staff from central hospital
departments such as lab, housekeeping, and food sexvices to work in teams with
registered nurses. These “clinical partners,” as they are called, provide a variety of
nursing assistant and technical tas~ such as drawing blood, performing basic
respiratory therapy, reinforcing physical and occupational therapies, and taking EKGs.

Managers and health care providers in both settings credit these changes with
improving patient care. They cite benefits such as reduced waiting time for semices
and tests, as well as greater responsiveness to the immediate demands of patients,
nurses, and physicians on their unit=



                                           4
Although this approach is new for many urban hospitals, some lessons can be karned
from hospitals in rural areas. Driven by necessity in the face of personnel shortages,
rural hospitals have been using workers in multiple roles as a normal way of doing
business. One executive we interviewed, who has worked with several rural hospitals,
described the situation particularly well. “The nursing staff really are much more
flexible; they are expected and willing to do more. There is a blending of job lines-­
you have to do that to survive.”

In kg km caresettings,numepmctitibnemandphyskiian@t@Us     We -                  a­
deikp-heahhand~               cureservkes to nlmiilghome rzW4?91&

Some nursing homes and physician practices are taking advantage of expanded
authority under Medicare and Medicaid to increase their utilization of NPs and PAs.
Under collaborative arrangements with physicians, NPs and PAs are providing semices
such as physical examinations and x-ray interpretations that have traditionally ‘been
resemed to physicians. NPs and PAs also are recerti&ing nursing home residents as
eligible for continued coverage under Medicaid.17

We examined the approach        used by Evercare, a managed care delivery system in
Minneapolis-St. Paul. Evercare uses geriatric nurse practitioners (GNPs) and
physicians to provide medical care semices to about 700 nursing home residents.
Under a collaborative agreement with a physician, Evercare’s GNPs may prescribe
drugs and order tests, send residents to the hospital when necessary, and make
recertification visits required by State and Federal regulation. The GNP also makes
urgent medical visits when needed and often decides whether the physician should see
the resident. Because of its focus on preventive care within the nursing home
EverCare reports that its members use about half as many inpatient hospital days as
the national nursing home population.18

Other studies have also cited the benefits of using PAs and NPs to provide nursing
home care. The Massachusetts Nursing Home Connection Program tested the use of
NPs and PAs to improve quality of care in nursing homes. With physicians retaining
overall responsibility for patient care, NPs and PAs performed duties and
responsibilities delegated under written protocols, such as ordering tests, special diets,
and rehabilitation therapy, and adjusting medications upon oral physician orders. A
RAND Corporation evaluation of this program found that the use of NPs and PAs for
primary care in nursing homes “achieved modest improvements in quality of care
without increasing costs. Further, both nursing home administrators and directors of
nursing homes expressed higher levels of satisfaction with the process of care
delivered.”19

These types of arrangements appear to improve productivity by enabling physicians to
concentrate on providing care that requires more medical intervention, rather than the
preventive care, monitoring, and maintenance that many nursing home residents need.
A GNP practicing at Evercare believes her caseload is typical. She estimates that 75
percent of the problems she sees do not require the urgent attention of a physician


                                            5
(e.g., a slight change in activities, rewriting or revising restraint orders, or a minor
change in medication). From our study at Evercare it appears that NPs have been
effective in facilitating communication, both with nursing home staff--conveying orders,
visiting a home more regularly to treat residents while the office-based physician also
cares for a regular case load--and with the residents and their families.

In ambuhztq selthgq clikks and managd camprqyums are usingphysicianasmkaW$
numepmdioq       andcdjie    dnumemidwi ktoincn?asea
                                                  ccesst o-cm
service%

On the basis of a comprehensive review of the research literature, the Congressional
Office of Technology Assessment (OTA) reports that NPs and PAs can provide,
without consultation, between 50 and 90 percent of the prima~ care tasks normally
performed by physicians. The OTA also cites evidence that, working under physician
supemision, NPs and PAs can increase physician practice output and productivity by
20 to 50 percent.m

PAs, NPs, and CNMS have been working for some time now in clinics and managed
care settings. They work in primary medical care, including pediatrics, internal
medicine, family practice, and obstetrics, as well as in surgical specialties such as
ophthalmology, orthopedics, and neurology. Within primax.y care semices, NPs and
PAs treat minor acute illnesses; they may handle outpatient orthopedic        cases, such as
uncomplicated fractures, dislocations and sprains; others perform minor surgery, such
as suturing and others may provide well baby examinations and general pediatric care.
They also perform routine health maintenance exams, including immunization tracking,
counsel patients on topics such as nutrition and family planning, and provide
gynecologic and women’s health services.

As managed care systems expand, it is likely that the role of NPs, PAs, and CNMS will
grow as these organizations seek to hold down costs, while maintaining a commitment
to providing high quality services. These providem already work on a large-scale basis
in private practices. During the course of our research, we spoke with PAs at two
large group practices to gauge the extent of their involvement. Pennsylvania’s
Geisinger Clinic, a private, multi-specialty group practice, employs more than 100 PAs
and NPs to complement the work of over 500 physicians associated with the clinic.
Community Health Plan, an Albany, New York staff model HMO, reports that over
150 PAs, NPs, and CNMS deliver care to their patients.

In addition to their work in private clinics and practices, these nonphysician providers
improve access to health care semices in other ambulatory settings. A recent OIG
study indicates that 27 percent of urban community health centers use CNMS, 43
percent use NPs, and 17 percent use PAs to provide perinatal semices.21 A 1992
report prepared for the Bureau of Health Professions found that 88 percent of rural
community and migrant health centers employ or are seeking NPs, PAs, or CNMS.U
Other settings in which nonphysician providers furnish services include school-based
clinics, jails, homeless shelters, and HIV treatment programs.


                                             6
DESPITE THE PROMISE THAT THESE APPROACHES HOLD, SIGNIFICANT
BARRIERS EXIST THAT CONSTRAIN THEIR WIDESPREAD ADOPTION.

l%)f~       T~liwn

Rather than encourage a teamwork approach to providing care, professional
boundaries often inhibit cross-discipline sharing of knowledge and information. The
Pew Health Professions Commission summarizes this barrier by stating, ‘The carefully
defined boundaries for the various health professions have . . . limited
interprofessional contacts. Although the care delive~ system would benefit horn
professionals who are capable of relating to other professionals through team efforts,
there is little encouragement from accreditation, licensure or the professions to
support inter-professional educational experiences.”=

In our case studies, we saw examples that show how professional terntorialism can
inhibit hospitals horn using nonphysician providers in new ways. In one of the
hospitals we visited, respiratory technicians and pharmacists rebelled against working
directly with the nursing staff in an expanded role. They feared that they would
become subordinate to nurses, thus limiting their own autonomy; that they would
become jacks-of-all-trades, rather than skilled professionals; that they would have to
report to someone in a different profession who would not understand their work that
nursing’s philosophy focuses on holistic aspects of patient care, rather than the
individual body systems with which they were familiar; and that they would in effect
become pseudo-nurses. The remarks of one RT summarized the views of his
colleagues: “If I’d wanted to be a nurse, I would have gone to nursing school.”

Utilizing nonphysician providers more productively requires a fundamental shift in
approaches to delivering health care. It demands an accompanying change in the
views of health care professionals, who may have to alter their traditional roles. These
changes presume that those trained in different professions are able to perform
additional tasks for which they have similar technical skills. Enhancing the utilimtion
of nonphysician providers does not mean establishing new professions, or “letting
nurses’ aides perform brain surgery.” Rather, it encompasses a blending at the margins
where technical skills and knowledge overlap. This blending encourages health care
providers to cross boundaries and barriers that result from professional orientation
and training, rather than from patient care needs.

In many cases, providers’ concerns involve more than pure self-interest. The concerns
reflect sincere beliefs about what they regard as best for their patients. Nevertheless,
professional terntorialism limits health care providers’ ability to take advantage of
opportunities for improvement. Sherry Makely, who has studied efforts to change how
health care personnel are used in a number of institutions, expresses how many
professionals feel: “Professional terntorialism concerns influence our motivations and
priorities as care givers, educators, supervisors, and managers. They may impede our
willingness to consider new approaches and to participate in bringing about necessary
change. For many of us, our individual identities are rooted in our work as


                                           7
professionals.   ~reatsto   ourprofession   often translate into threats to us as
peopleo”m

Lkensure   Rxbictions

The Institute of Medicine, in its study of allied health personnel, concluded that
“widespread use of licensure carries with it higher costs to consumers, reduced access
to health care services, and reduced flexibility for managers. . . . Although these
control mechanisms are designed and earned out in the stated interest of protecting
the health and welfare of the public, their effectiveness in this regard has been mixed
at best.”m The IoM goes on to note that “in a time of great ferment in health care,
these control mechanisms take on even greater significance. The proliferation of
health care occupations, changing models of health care delivery, and new
reimbursement methods, along with cost-control efforts by indus~ and government,
place stress on these controls.”~

The purpose of State licensing and regulatory laws is to protect the public’s health,
safety, and economic well-being by restricting ent~ into the occupations to persons
who have the proper training and competency. Yet these regtdato~ laws have other
effects, including establishing the identity and power of different health professions as
“the various occupations battle among themselves over which parts of health care and
which parts of the patient fall under their jurisdiction.”27 The comments of a former
attorney for a State licensing board show the implications of these divisions. She
noted that she had argued on behalf of podiatrists that the ankle is part of the foot,
since the podiatric practice act limits their scope to the foot. Despite its inefficiencies
from a systemic viewpoint, regulation is a goal of many newer health professions that
have arisen. The lobbyist for one allied health profession typified this view when she
told us, ‘we have to do it because everyone else does. Allied health professions seek
licensure to be on an equal footing with other groups and professions.”

Licensure laws are not immutable, however, as changes in training, practice, and
public acceptance permit new roles. Barriers confronting NPs, PAs, and CNMS have
diminished to some degree, as the contributions of these providers have been
recognized. For example, requirements for direct on-site supemision by physicians
have become less restrictive in response to recognition of PAs’, NPs’, and CNMS’
judgement and capabilities, as well as advances in technology that make instantaneous
communication readily available. As of December 1992, 32 jurisdictions authorized
PAs and CNMS and 43 jurisdictions authorized NPs to write prescriptions.=      In our
case study of Evercare, we found that GNPs were taking advantage of Minnesota’s law
authorizing nurse practitioners to write prescriptions upon approval of the State Board
of Nursing and subject to a collaborative physician-NP protocol. In contrast EverCare
staff told us that their development of a second program in Illinois has been hindered
by the lack of prescriptive authority for NPs in that State.

At a more subtle level, obstacles remain as changes in nonphysician providers’ scopes
of authority are instituted. These obstacles limit the nonphysician provider’s ability to


                                             8
take his or her authority to a new practice setting or job. For example, prescription
writing privileges may require that a State’s Board of Medicine--which oversees
physicians--rather than its Board of Nursing authorize NPs and CNMS to write
prescriptions. In that situation, the power to write prescriptions becomes a
responsibility delegated by a collaborating physician, rather than an authority the NP
or CNM maintains in his or her own right. In some States, PAs are licensed on their
own, and they must merely noti~ the State Board of Registration as to the name and
address of their supemising physician. In other States, a PA’s license to practice is
tied to an individual physician; the PA camot change employers or practice sites
without going through another State approval process.

Eiucationaz Lwkltib?l

For the most part, health professions education is conducted within the specific
disciplines--physicians train physicians, nurses train nurses, physical therapists train
physical therapists, and so on. This approach to education divides the professions
from each other, and reinforces professional territorialism, at the earliest stages of the
career. As the Pew Health Professions Commission notes, “these parameters create a
box. If problems fall within the limits of the box they can be solved by the extremely
sophisticated resources of the current system’s paradigm. If they fall outside of the
box, as will many of the problems now and in the next century, we will not have the
capacity to recognize the problem adequately analyze it, or bring the appropriate
resources together to develop a solution.”n

There is little encouragement or support from accreditation or licensure bodies, or
from the professions themselves, to develop interprofessional education. Preparing
health care personnel for new roles requires that educational programs provide
training for those roles. Yet, “strategies that call for new work relations among
caregivers are bound to fail as long as medical schools and residency programs
continue to neglect training on cooperative practice styles and team building between
physicians and other health professionals. In general, education programs for all levels
of health workers need to be subjected to a new level of scrutiny.”w The need for
this team building was highlighted in our case study at Evercare. We found that such
a collaborative practice arrangement requires physicians to work with GNPs in a
partnership that shares authority and responsibility. As one GNP there told us, “For
this model to really work you have to have a physician or medical group that is willhg
to work with GNPs as primary providers, not just have them on staff.”

Health professions education focuses on clinical and biomedical skills, while paying
only limited attention to other areas, such as management and human resource skills
that would prove beneficial in the workplace. For example, in both of our hospital
case studies, we encountered nurses who were uncomfortable with their ability and
skill in delegating tasks to other workers, and in how to supexvise them. Both Mercy
and St. Joseph’s decided to invest their resources into training nursing staff on
management and task delegation.



                                             9
wSkiimRzsiwlnce
Many physicians have resisted broader scopes of practice and independence for
nonphysician health care providers. To be sure, the expanded use of NPs, PAs, and
CNMS in recent years indicates greater physician acceptance and recognition of these
providers among some components of the medical community. Nevertheless,
resistance to expanding their role further remains.

To some degree, physician resistance may reflect professional territorialism or
economic self interest. Some physician concerns relate to their own training and
tradition. Physicians question how the expanded use of nonphysician providers will
change medical practice and the physician’s role in the health care system. For
example, physicians who work directly with EverCare’s nurse practitioners expressed to
us a ve~ positive view of the GNPs’ capabilities and their comfort with the
collaborative arrangement that has developed. These physicians, however, also told us
that other physicians have not readily accepted the expanded GNP role. The authority
of the GNPs to write prescriptions appears to be particularly difficult for many
physicians, despite the clear authority in the State law. Coupled with the specific
concerns over prescriptive authority, there also appears to be a fear among some
physicians that NPs eventually will want to set up independent practices that could
threaten physicians’ practices.

Physicians raise other concerns that shed further light on their resistance. Perhaps
foremost are questions about the impact on the quality of care. As the traditional
ent~ point into the health care system, physicians question whether using an Nl?, PA
or CNM as the primary decision maker on health care is in the patient’s best interest
They raise questions about the training and capabilities of nonphysician providers.
Some of their concern relates to uncertainty about the role of nonphysician providers.
For example, physicians may question whether NPs, schooled in nursing diagnosis and
care, should be making what physicians see as essentially medical decisions.
Consequently, organized medicine, represented by the American Medical Association
(AMA), argues that the services of PAs, NPs, and CNMs, “should only be provided
under the supervision of, or minimally in collaboration with, the physician to ensure
that medical needs are appropriately recognized and met.”31

Resistance to greater use of nonphysician providers may sometimes result from
physicians’ lack of familiarity with ways to utilize and work effectively with NPs or
PAs. Effective use of these providers requires a great deal of trust and confidence.    A
supemisory or collaborative relationship, as advocated by the ~          calls for
supemisory and managerial skills--something rarely taught in medical school.

Limited acceptance of NPs, CNMS, and PAs could hinder access to care, especially
since they can extend the capacity of the individual physician to deliver care. At
EverCare, for example, we saw that the GNPs can provide alternate regulatory visits
and write prescriptions, and that they also facilitate communication both between the
physician and the facility, and between the physician and the family. This experience


                                           10
shows a complementa~ relationship, resulting in semices to more people than one
physician acting alone could provide.

Finally, as health care organizations, such as hospita& consider expanding their use of
nonphysician providers, few physicians are eager to invest substantial time in these
deliberations    Rather than sit in meetings to discuss who should do what, they prefer
to be practicing medicine. The organization of the delivery system is likely to become
an issue to some only when these changes begin to directly impact their practice. As a
consequence, physicians’ involvement although very likely to be critical to the success
of new initiatives, is rarely forthcoming. We found this lack of interest to be true in
our case studies at both St. Joseph’s and Mercy Hospitals. Except for a ve~ few
physicians, the involvement of the medical staff in establishing the new positions of
service associates and clinical associates was margina.L

I’nstktibnalAlhda

Health care organizations, like any organization, are naturally resistant to change.32
Reorganizing how nonphysician health care providers are utilized entails substantial
risk. Any reorganization is likely to be threatening to the staff and disruptive to
ongoing operations. It establishes new roles and responsibilities; coordination and
lines of supmvision change; new quality assurance mechanisms maybe required. At
the same time, a health care organization may incur substantial training costs, with a
payoff likely only over the long term. Any financial benefit is likely to be difficult to
quanti~. Other anticipated gains, such as better positioning in a competitive
marketplace, may be equally difficult to identify.

Within the health care system, hospitals face particularly difficult challenges in
reorganizing the work force because they are such large, complex institutions. In our
visits to St. Joseph’s and Mercy Hospitals, we saw how these challenges made change
difficult. Some staff resisted taking on new responsl%ilities; people felt excluded from
the decision making process; some departments actively fought and attempted to
undermine the changes.

Changing the role of nonphysician providers also affiects other organizations, as well as
hospitals. In nursing homes we visited in the Evercare program, for example, we
found that the staff in the medical records department initially refused to accept nurse
practitioners’ signatures on medical orders or prescriptions because they were used to
recording only physicians’ orders.

Donald Berwic& a widely recognized expert on quality management in health care
organizations, writes in the NW England Joumul of Medicine that for health care
organizations to “organize for quality, . . . flexible project teams must be create&
trained, and competently led to tackle complex processes that cross customary
departmental boundaries.”33 However, redefining traditional boundaries requires a
sifiificant change in how all health care staff--both physician and nonphysic~an
providers--are utilized.


                                            11
                           CONCLUSIONS


The M&    Health Servkq optikg urukrauthmks““ inthe HmUh13vfti
JWcatiAAc~ hasanop-            to@engtkn aWUUionalkade
                                                     d@m&?in
encoumgingmorepmdudzv  “euseofpmonnd     By actingas a cataly~ PHS COW hriqg
tothef*nt     amoreext4ms& exwnkWo“ n of how nOnp@kian heaMcan?pmvi&s
can he@ krease accessand contd cWs wilhoutsaaijkm “ g PW”

Clearly, there is widespread recognition that nonphysician health care providers will be
important in resolving issues of cost, access, and quality. In some places, nonphysician
providers such as nurse practitioners, physician assistants, and certified nurse midwives
are delivering health care services traditionally provided by physicians. The Congress
has noted that these providers “will play a pivotal role in reaching the national goal of
making access to primary health care more widely available and of reducing
unnecessary health care costs.”~ The Office of Technology Assessment has stated
that “within their areas of competence, NPs, PAs, and CNMS provide care whose
quality is equivalent to that of care provided by physicians.”35 The Department’s
Bureau of Health Professions is working to expand the supply and distribution of
prima~ care providers, both physicians and nonphysicians.

We believe that it is also important to encourage changes in how health care is
delivered at the practice level. Such an effort must consider the whole spectrum of
nonphysician health care workers in addressing issues of cost, access, and quality. In
this repo~ we have focused on approaches to integrating nonphysician providers into
the semice delivery system at the practice level. As we have reported here, such
efforts are underway in acute care, long term care, and primary care settings. These
efforts, however, are made more difficult by a number of constraints that inhibit
widespread adoption of new methods for using health care personnel more
productively.

While this inspection has shed some light on the opportunities and constraints, it is
clear to us that efforts such as those described in this report are only a beginning. We
believe that more focused attention on these issues and on similar approaches would
make important contributions to improving access to high quality health care s~ces
within the reality of budgetary constraints.

We offer the following ways that the PHS could take advantage of this opportunity

  �	
       7%e PH$ti i/s jidikgofhealth camedkcdonal indWhsj  wuklgive
       krt?ased ~pti     to cunkukhthat-h  -07y    and managementskdk
       neded ti take advamkzge of o~      fm &g heakh carepmwnnel rn??um?
       pn2Actie wayx

Our case studies found that health care professionals were unfamiliar or unskilled in
how to utilize other health care personnel effectively, Developing these management


                                           12

skills could be included in the basic educational curriculum for health care providers.
This training could include, for example, determining how to delegate tasks, how to
supervise and encourage workers in other professions, and how to monitor and assure
quality.

  �
      Z%ePH& inits jidingo flldlhm titionaz~qdpay~
      attedon topmgmms thatencozuugethe devekpnent of Coopemtivepmctke
      mudek among dij’Jimmtheakh UZRpmfhrx

Increasing emphasis on managed care and teamwork in delivering health care semices
will require cooperation among the different health care professions. The PHS could
provide assistance to health professions schools to develop curricula that bring
together professionals from different disciplines, where appropriate. Such an
approach would help health professionals develop a broader understanding of their
colleagues’ approaches to providing care and of their capabilities, and could encourage
multi-disciplinary approaches to problem solving.

  �
       Z7zePHS cozdi convene a ndbnd sppmium toexplore thepdkmtud
                                                               “ fmusing
       hedh carepemonnelinurepmdktive&

By involving a wide range of interested parties, the symposium could seek to include
all relevant viewpoints on how the barriers identified in this report might best be
addressed. The symposium could pay particular attention to addressing these barriers
in the context of primary care sexvices. We expect that the symposium would include
Federal, State, and local governments; public and private licensing and credentialing
organizations; groups representing professions, such as medicine, nursing, and allied
health care; health care organizations such as hospit~    nursing homes, and managed
care systems; consumer advocacy groups; health services researchers; and labor,
business, and insurance.

By soliciting and/or commissioning papers that showcase examples of effective change
in the health care work place, the PHS could use the symposium to draw attention to
the potential for and benefits from these changes, the problems and barriers that
confronted these efforts, and how such obstacles can be overcome. PHS could publish
the symposium papers and proceedings to ensure broad dissemination of the results.




                                           13
                               APPENDIX               A


                                     ENDNOTES

1. Sally T. Burner, DanieI R. Waldo, and David R. McKusick, “National Health
Expenditure Projections through 2030~ Health Care Financing Review, vol. 14, no. 1,
Fall 1992, PP. 1-29.

2. Prospective Payment Assessment Commission, Medicare and the American He&h
Care System: Repoti to Congress,June 1992, p. 11.

3. Institute of Medicine, Medicare: A Strategy for Quality Assurance, National
Academy Press, Washingto~ DC, 1990, pp. 207-232.

4. Institute of Medicine, Allied Health Services: Avoiding Crkes, National Academy
Press, Washington, DC, 1989, p. 231.

5. Stuart H. Altman, Susan Goldberger, and Stephen C. Crane, ‘The Need for a
National Focus on Health Care Productivity,” Health Aflaim, vol. 9, no. 1, Spring 1990,
pp. 112-113.

6. Benjamin Shimberg, Occupational Licensing: A Public Pempective, Educational
Testing Semite, Princeto~ NJ, 1982, p. 7.

7. Council of State Governments, National Clearinghouse on Licensure, Enforcement
and Regulation (CLEAR), State Regukztion of the Health Occupations and ~of&ns:
1985-86, Lexington, KY, March 10, 1987; Eugenia S. Carpenter, “State Regulation of
Allied Health Personnel: Trends and Emerging Issues,” Background paper for the
Institute of Medicine Committee to Study the Role of Allied Health Personnel, August
1987.

8. Karen Glem, “Coming up Short:      Hospitals Seek Workers,” Medi2ine & Heahh
Penpectives, June 12, 1989.

9. Department of Health and Human Semites, Bureau of Health Professions,         Seventh
Reprt to the Besident and Congress, March 1990, p. A-1.

10. P.L. 102-408.

11. 42 U.S.C. section 254-1.

12. Congress of the United States, “Joint Explanatory Statement of the Committee of
Conference on H.R. 350&” Health Professions Education Extension Amendments of
1992, P.L. 102-408.




                                         A-1

13. Congress of the United States, Office of Technology Assessment, Nime
Practitioner, Physician Assistants, and Cedjied Nine-Midwives: A Policy Analysis,
December 1986. Emphasis in original.

14. Physician Payment Review Commission, “Paying Nonphysician Practitioners under
the Medicare Fee Schedule,” Annual Repti /o Congress, 1991, March 1991, pp. 183-
207.

15. George J. Schieber, Jean-Pierre Poullier, and Leslie M. Greenwald, “U.S. Health
Expenditure Performance: An International Comparison and Data Update,” Heakh
Care Financing Review, vol. 13, no. 14 (Summer 1992), table 17, pp. 48-49. Data are
horn the Organization for Economic Cooperation and Development.       (The German
data are from 1989.)

16. An umbrella group advocating the development of multi-skilled health
practitioners defines such a provider as “a person who is cross-trained to provide more
than one function, often in more than one discipline. These combined functions can
be found in a broad spectrum of health related jobs ranging in complexity from the
nonprofessional to the professional leve~ including both clinical and management
functions. The additional functions added to the original health care worker’s job may
be of a higher, lower, or parallel level.” (Richard Bamberg, cd., Multikilled HeaZth
Practitioner Education, National Multiskilled Health Practitioner Clearinghouse,
Birmingham, & 1989, p. 6.)

17. Section 1902(a)(44) of the Social Security Act, effective October 1, 1990, governs
recertification for Medicaid residents. Section 1861(s)(2)(K) of the Act provides
Medicare reimbursement on an assignment basis for PA sexvices (effective January 1,
1987) and NP services (effective April 1, 1990).

18. Evercare reports 1,700 hospital days per 1,000 beneficiaries, versus about 3,4(M)
days in the national population.

19. Joan L. Buchanan, Robert L. Kane, Judith Garrard, Robert M. Bell, Christina
Witsberger, Alan Rosenfeld, Carol Skay, Deborah Gifford, Results fionz the Eva-n
of the Massachuset~ Nursing Home Connection Bognam, The RAND Corporatio~
Santa Monica, CA October 1989.

20. Office of Technology Assessment    p. 6, p. 39.

21. Unpublished data from Z%ePerinatal Service Capacity of the FederalZyFunded
Community Health Centem: Urban Centexs, OIG-OEI-01-90-02330, December 1992

22. Michael E. Samuels     and Leiyu Shir, “Report on the Survey of Community and
Migrant Health Centers    Regarding Utilization of Nurse Practitioners, Physician
Assistan@ and Certified    Nurse Midwives,” prepared under Health Resources and
Senrices Administration   contract No. 240-89-0037 (1991 continuation).




                                         A-2

23. Pew Health Professions Commission, Healthy Amen”ca: fiactitionen for 2005,
October 1991, p. 15. The Pew Charitable Trusts, a private nonprofit philanthropy,
convened the Commission to examine “How do we ensure that today’s students will
contribute to and thrive as practitioners in tomorrow’s radically different and ever-
changing new health care environment?” The Commission comprised 27 individuals,
including public ofiicials, educators, health care professionals, and representatives of
labor and business.

24. Sherry Makely, “Acknowledgements and Observations,” HeaMy Hands:
Customizing Your Health Team for Iiwtitutional Survival, W.K. Kellogg Foundation,
Battle Creek MI, May 1992, p. xiv-m.

25. Institute of Medicine, Allied Health Services, pp. 235-6.

26. Ibid., p. 253.

27. Ibti., p. 242.

28. American Academy of Physician Assistants, “Physician Assistants: Prescribing and
Dispensing” December 1992; American College of Nurse Midwives, “Fact Sheet:
States in which CNMS have Prescriptive Authority,” October 1992; Linda J. Pearson,
“1992-93 Update: How Each State Stands on Legislative Issues Affecting Advanced
Nursing Practice,” Z4e Niuxe Practitioner, January 1993, pp. 23-38.

29. Pew Health Professions Commission, p. 11.

30. Altm~     Goldberger, and Crane, p. 112.

31. Lomie R. Bristow, American Medical Association Statement to the Physician
Payment Review Coremission, December 9, 1992, p. 18. A recent example of how this
opposition is expressed comes fkom Massachusetts, where the State Medical Society
opposed legislation to change the role of advanced practice nursing. ‘Through this bill
nurses practicing in the advanced role are attempting to replace physicians. . . . We
particularlyneed female physiciansto testi& against Senate Bill 457.” (emphasis in
original). Massachusetts Medical Society Legislative Report, XI, no. 1, Member Alert,
February 1993.

32. See, for example, Donald A Schon, Beyond the Stable State, W.W. Norton &
Company, New York 1971. Schon describes this resistance to change as “dynamic
conservatism--a tendency to fight to remain the same.”

33. Donald J. Benvic~ “Continuous Improvement as an Ideal in Health Care,” N&v
England Journal of Medicine, vol. 320, no. 1 (January 5, 1989), p. 55.

34. U.S. Congress, “Statement of the Conference Committee.”

35. Office of Technology Assessment, pp. 5-6.



                                          A-3
